No. 20-772

In the
Supreme Court of the United States
WATERFRONT COMM’N OF NEW YORK HARBOR,
PETITIONER,
v.
PHIL MURPHY, GOVERNOR OF NEW JERSEY, ET AL.
RESPONDENT.
ON PETITION FOR WRIT OF CERTIORARI TO THE
COURT OF APPEALS FOR THE THIRD CIRCUIT
RESPONDENTS’ JOINT BRIEF IN
OPPOSITION TO CERTIORARI

GURBIR S. GREWAL
Attorney General
State of New Jersey
JEREMY M. FEIGENBAUM*
State Solicitor
JEAN P. REILLY
Assistant Attorney General
JAMIE M. ZUG
KRISTINA L. MILES
Deputy Attorneys General
25 Market Street
Trenton, NJ 08625
(609) 292-4925
jeremy.feigenbaum@njoag.gov
* Counsel of Record
Counsel for Respondent
Governor Murphy

LEON J. SOKOL*
STEVEN SIEGEL
CULLEN AND DYKMAN LLP
433 Hackensack Avenue
Hackensack, NJ 07601
lsokol@cullenllp.com
* Counsel of Record
Counsel for Respondents
New Jersey Senate, Senate
President
Stephen
M.
Sweeney, New Jersey General Assembly and Assembly Speaker Craig J.
Coughlin

TABLE OF CONTENTS
Page(s)
INTRODUCTION ........................................................ 1
STATEMENT OF THE CASE .................................... 2
REASONS FOR DENYING THE PETITION ............ 8
I. The Alleged Circuit Split Is Illusory. ............... 8
II. This Case Does Not Otherwise Warrant
......Certiorari.........................................................14
A. Petitioner Overstates The
Consequences Of The Decision
Below....................................................14
B. The Decision Below Is Correct............20
III. This Case Is A Poor Vehicle In Which To
Review The Question Presented .................... 24
CONCLUSION .......................................................... 26

i

ii
TABLE OF AUTHORITIES
Page(s)
Cases
Alabama v. North Carolina,
560 U.S. 330 (2010) .............................................. 16
In re Ayers,
123 U.S. 443 (1887) ........................................ 20, 23
Blatchford v. Native Village of Noatak &
Circle Village,
501 U.S. 775 (1991) ........................................ 15, 16
College Savings Bank v. Florida
Prepaid Postsecondary Educ.
Expense Bd.,
527 U.S. 666 (1999) .............................................. 16
Del. River Joint Bridge Comm. v. Sec’y
Pa. Dep’t of Labor & Indus.,
985 F.3d 189 (CA3 2021) ............................. passim
DeVeau v. Braisted,
363 U.S. 144 (1960) ................................................ 2
Entergy Arkansas, Inc. v. Nebraska,
241 F.3d 979 (CA8 2001) ....................................... 9
Entergy Arkansas, Inc. v. Nebraska,
358 F.3d 528 (CA8 2004) ....................................... 9
Entergy Arkansas v. Nebraska,
210 F.3d 887 (CA8 2000) ............................. passim

iii
Hagood v. Southern,
117 U.S. 52 (1886) ................................................ 23
Idaho v. Coeur d’Alene Tribe.
521 U.S. 261 (1997) .............................................. 11
Pennhurst State Sch. & Hosp. v.
Halderman,
465 U.S. 89 (1984) ........................................ passim
Tarrant Reg’l Water District v.
Sevenoaks,
545 F.3d 906 (CA10 2008)............................... 11-14
Texas v. New Mexico,
462 U.S. 554 (1983) .............................................. 25
Va. Office for Prot. & Advocacy v.
Stewart,
563 U.S. 247 (2011) ...................................... passim
Other Authorities
Inspector General, Investigation of the
Waterfront Commission of New York
Harbor (Aug. 2009),
https://tinyurl.com/ydxvbk3m................................ 3
N.J. State Ethics Comm’n, Request for
Advisory Opinion: Commissioner
Murphy (“SEC Op.”) (Oct. 19, 2020),
available at
https://tinyurl.com/yap7lxun ............................... 25

1
INTRODUCTION
The question this case presents is not whether interstate compacts play important roles in addressing
policy issues that cross state lines. They do. The question this case presents is also not whether interstate
compact agencies can ever “sue a state official to prevent that official from implementing a state law that
would be preempted under a congressionally approved
interstate compact.” Pet. i. They can. Instead, the core
question presented is whether—on the specific facts of
this case—New Jersey retained its sovereign immunity in a lawsuit implicating the diversion of revenue
from its treasury to an interstate compact agency. As
the unanimous Third Circuit panel explained, its
“fact-specific” conclusion that New Jersey retained its
immunity follows from this Court’s precedents.
That holding does not warrant certiorari. Although
Petitioner believes that this Court must engage in error correction because the Third Circuit’s holding renders interstate compacts unenforceable in “every geographic corner” and “every imaginable field,” Pet. 26,
its view is misguided. Whether New Jersey retains immunity to a particular suit filed by a particular interstate compact agency says next to nothing about the
enforceability of interstate compacts generally. After
all, myriad other options exist to hold States accountable for violating an interstate compact: one or more
signatory States can sue them; the Federal Government can do so; or the signatories can agree to waive
their immunity to suit in the interstate compact itself.
And in any event, the decision below will rarely even
prevent interstate compact agencies from filing claims
against state officials; indeed, the Third Circuit itself
has already since allowed another interstate compact

2
agency to sue state officials in federal court. See Del.
River Joint Bridge Comm. v. Sec’y Pa. Dep’t of Labor
& Indus. (DRJBC), 985 F.3d 189 (CA3 2021). Rather
than portend the end of interstate compacts, the narrow question presented will hardly ever arise.
Nor are there other bases for certiorari. For one,
while Petitioner alleges a circuit split, the two cases it
cites confronted materially different facts, and their
application of the law to the facts differed accordingly.
For another, although Petitioner contends the Third
Circuit flatly contradicted this Court’s precedents, the
panel’s careful application of sovereign immunity case
law to the record before it proves otherwise. Finally,
contrary to Petitioner’s claims, this case is a poor vehicle to address any sovereign immunity questions because an ongoing dispute exists as to whether Petitioner enjoyed the authority to file this Petition in the
first place. There is thus no basis for certiorari in this
record-specific case, especially when a subsequent decision of the Third Circuit already directly addressed
the concerns Petitioner raises here.
STATEMENT OF THE CASE
1. In 1953, the States of New Jersey and New York
entered into the Waterfront Commission Compact—a
bi-state agreement designed to combat “crime, corruption, and racketeering on the waterfront of the port of
New York.” DeVeau v. Braisted, 363 U.S. 144, 150
(1960). As part of that Compact, the signatories established the Waterfront Commission of New York Harbor (Commission), a bi-state agency “with power to license, register, and regulate … waterfront employment.” Id. at 149. Although the Compact did not contain specific language regarding the methods or procedures for withdrawing from the agreement, see Pet.

3
App. 70-104, the legislative history contains evidence
that the signatories viewed the Commission as “temporary” and “transitional” to solve the then-sweeping
problem of crime at the waterfront, see CA3 App. 34243, 405, 408, 416. That made sense: although most interstate compacts involve permanent problems such
as the allocation of water resources or disposal of hazardous waste, this Compact dealt with the supervision
and regulation of employment and finances to prevent
then-extant crime.
In the intervening seven decades, conditions at the
New York Harbor have changed dramatically. Unfortunately, the Commission itself has become the source
of the very corruption and problems it was created to
combat. In 2009, the New York State Office of the Inspector General issued a scathing 63-page report outlining the Commission’s misconduct. See State of New
York Office of the Inspector General, Investigation of
the Waterfront Commission of New York Harbor (Aug.
2009), https://tinyurl.com/ydxvbk3m. The New York
Inspector General identified a “climate of abuse,” focusing in particular on a “lack of accountability fueled
by perceived immunity from oversight by outside entities,” the “abrogation of legal responsibilities undermining the very purposes of the Commission,” and actions ranging from “improper hiring and licensing to
fiscal lapses involving the misappropriation of forfeiture funds, unsound overtime pay and misuse of
Homeland Security grants.” Id., at 1.
New Jersey later reached the same conclusions. In
2018, the New Jersey Legislature found that the “commission itself has been tainted by corruption in recent
years and, moreover, has exercised powers that do not
exist within the authorizing compact.” Pet. App. 106.

4
Among other things, the Commission had been impermissibly “dictating the terms of collective bargaining
agreements of organized labor” at the port; requiring
“companies to hire and retain independent inspectors
… in order for those companies to continue to operate
in the port”; and “over-regulat[ing] the businesses at
the port in an effort to justify its existence as the only
waterfront commission in any [U.S.] port.” Id.; see also
id. (noting the Commission was now “an impediment
to future job growth and prosperity at the port”).
The Legislature thus voted to withdraw New Jersey from the Compact by enacting Chapter 324. Pet.
App. 105-178. The legislation provides that after notice is provided to Congress, the New York Governor,
and the Commission, the Commission must transfer
to the State its real and personal “property and assets,
contracts … and finances” in New Jersey. Pet. App.
27. The transfer includes the Commission’s “reserves,”
employer “assessments,” and “penalty” monies. Pet.
App. 121, 160, 161. The assessments that went to the
Commission will instead go to the New Jersey State
Police, Pet. App. 11, which will assume New Jersey’s
“portion of the [C]ommission’s law enforcement responsibilities.” Pet. App. 107.
2. The instant suit was filed just one day after the
enactment of Chapter 324. Notably, although the suit
was filed in the Waterfront Commission’s name, Commission staff initiated this litigation without bringing
the matter to vote before the two Commissioners. Pet.
App. 49-50. Because the Waterfront Compact explicitly sets forth that the “commission shall act only by
unanimous vote of both members thereof,” Pet. App.
75, Commission staff sought to remedy this defect by
seeking post hoc approval of their lawsuit. But they

5
succeeded in securing approval of the New York Commissioner alone, because New Jersey’s Commissioner
voluntarily recused himself over the concern that he
might have a conflict of interest. Pet. App. 50.
Undeterred—and even though the other signatory
State declined to sue New Jersey—Petitioner moved
forward with its action in the District of New Jersey.
Among other things, Petitioner’s Complaint requested
a declaratory judgment that Chapter 324 is unconstitutional and an injunction restraining the New Jersey
Governor from providing notice to Congress and New
York regarding the State’s decision to withdraw from
the Waterfront Compact. In particular, Petitioner emphasized that Chapter 324 “would take away the Commission’s primary revenue stream” by allocating “the
assessments that it collects from Port employers” to
the New Jersey State Police instead. Pet. App. 11; see
also id. (explaining reallocation of revenue “will virtually eliminate the Commission’s budget”).
The Governor of New Jersey moved to dismiss, as
did the New Jersey Senate and the New Jersey General Assembly, which intervened in the case. Among
other things, the motions explained that Petitioner’s
claims are barred by sovereign immunity, and that the
Commission’s staff lacked authority to file suit in the
Commission’s name. See Pet. App. 44-55. The court
granted Plaintiff’s motion for summary judgment and
denied the State’s cross-motion. Pet. App. 36.
3. The Third Circuit reversed. In a unanimous decision by Chief Judge Smith and joined by Judges Hardiman and Krause, the panel held that the State was

6
the real party in interest in this lawsuit and was thus
entitled to sovereign immunity. Pet. App. 10-14.1
The panel explained that its conclusion flowed naturally from this Court’s sovereign immunity decisions.
The Third Circuit recognized, of course, that if a party
is harmed by “an ‘ongoing violation of federal law,’” it
can usually “seek prospective relief” against that official “by suing him in his official capacity.” Pet. App. 7
(quoting Va. Office for Prot. & Advocacy v. Stewart
(VOPA), 563 U.S. 247, 254-55 (2011)). As the court
noted, however, the Ex Parte Young doctrine “‘has
been narrowly construed.’” Id. (quoting Pennhurst
State Sch. & Hosp. v. Halderman, 465 U.S. 89, 114
n.25 (1984)). As the court laid out, even if a suit is formally pled against a State’s official, “the doctrine ‘does
not apply when the state is the real, substantial party
in interest.’” Id. at 8 (quoting VOPA, 563 U.S., at 255).
In conducting that analysis, courts ask “whether ‘relief sought nominally against an officer is in fact
against the sovereign’ based on whether the relief
would ‘operate against’ the sovereign.” Id. (quoting
Pennhurst, 465 U.S., at 101).
The panel identified two circumstances in which a
judgment operates against the State itself. First, the
panel explained that a “State is generally the real,
substantial party in interest if the ‘judgment sought
would expend itself on the public treasury or domain
or interfere with public administration’ or if relief consists of ‘an injunction requiring the payment of funds
from the State’s treasury.’” Pet. App. 8 (quoting
The panel found that because of its holding that New Jersey
retained immunity, it “need not resolve” whether “this suit was
properly filed in the Commission’s name.” Pet. App. 5 n.3.
1

7
VOPA, 563 U.S. at 255-56). Second, States are the real
party if a judgment “effectively seeks ‘specific performance of a State’s contract.’” Pet. App. 12 (quoting
VOPA, 563 U.S., at 257). Based on a close assessment
of “the[] facts” in this case, the unanimous panel found
under each framework that the relief Petitioner was
seeking “unquestionably operates against the State itself.” Pet. App. 12 & 12 n.11.
The Third Circuit first engaged in a “fact-specific”
assessment of whether the relief sought “‘would expend itself on the public treasury’” so that the real defendant was the State itself. Pet. App. 8, 12 n.11. Answering in the affirmative, the Third Circuit explored
the Complaint’s “frank … recitation of the expected financial effects” of the New Jersey statute and quoted
extensively from Chapter 324. Pet. App. 11. The court
noted that the legal dispute centered on which litigant
is entitled to certain financial “assessments,” “assets,”
and “budget[s]”—New Jersey (which would use revenues to fund State Police operations at the port) or the
Commission. Id.; see also Pet. App. 12 (emphasizing
Petitioner’s efforts to “divert state treasury funding”);
Pet. App. 12 n.11 (noting dispute arose because “[t]he
Commission has no quibble with the assessments continuing but wants to keep the revenue coming to its
own account instead of New Jersey’s”). Because such
a dispute over revenue allocations, “nominally sought
from the Governor,” would really “operate against the
State itself,” the State was necessarily “the real, substantial party in interest.” Pet. App. 10.
Second, the Third Circuit independently “reach[ed]
the same outcome” by assessing whether Petitioner’s
relief would “effectively seek[] ‘specific performance of
a State’s contract.’” Pet. App. 12 (citing VOPA, 563

8
U.S., at 257). In this unique case, the New Jersey Legislature itself “has chosen to discontinue its performance of the Compact and to resume the full exercise
of its police powers on its own side of the Harbor.” Pet.
App. 1. Unlike a case that merely holds officials to account for violations of a compact, the relief sought in
this case would have the direct effect of “compel[ling]
New Jersey to continue to abide by the terms of an
agreement it has decided to renounce.” Pet. App. 13.
Because that request was “tantamount to specific performance,” the relief would “operate against the State
itself,” rendering New Jersey the real party in interest. Id. For either or both independent reasons, New
Jersey retained immunity on these facts.
The Third Circuit denied a motion for rehearing en
banc without noted dissent. Pet. App. 67-68.
REASONS FOR DENYING THE PETITION
Far from destabilizing interstate compacts across
the country, this case presents a fact-bound question
of routine state sovereign immunity application. The
Third Circuit’s resolution of that question did not generate a split, will not have the consequences Petitioner
fears (and in fact has not had such consequences), and
reflects the appropriate result under this Court’s precedents. And were that not enough, this Petition presents a poor vehicle for review—because it is not clear
Petitioner has authority to pursue it.
I.

The Alleged Circuit Split Is Illusory.

The decision below does not conflict with—or even
create tension with—the decision of any other circuit.
While Petitioner alleges conflicts with the Eighth and
Tenth Circuits, the different facts of those cases, and

9
the different questions that they answered, easily explain the different results they reached.
1. No split exists with the Eighth Circuit. Although
Petitioner relies upon Entergy Arkansas v. Nebraska,
210 F.3d 887 (CA8 2000), the cases could not be further afield. Entergy involved an interstate compact “to
develop disposal facilities for low level nuclear waste
generated within their borders.” Id., at 890. Although
Nebraska signed the compact, it had failed to fulfill its
duty to license such a facility in its borders. Id., at 893.
The commission established by that compact sued Nebraska, its agencies, and its officers to require compliance with that compact’s terms. Id. at 890.
But while the Eighth Circuit found that the Commission could sue Nebraska, it reached its conclusion
largely on grounds inapplicable to this case. Since the
Commission sued Nebraska itself (not just the State’s
officers), the primary question was “whether the language of the compact” Nebraska signed “constitute[d]
a ‘clear declaration’ of consent to suit [by the Commission] in federal court.” Id., at 897. In other words, the
case did not turn on the identity of the real party in
interest (as here), but on whether Nebraska waived its
sovereign immunity. Id. Analyzing in detail the interstate compact’s provisions, the Eighth Circuit determined that it “authorize[d]” the Commission to “enforce” in court “the obligations it imposes upon party
states,” meaning that Nebraska had in fact waived its
immunity. Id. And in subsequent rulings, the Eighth
Circuit repeatedly confirmed that Entergy I was based
on Nebraska’s waiver of sovereign immunity in this
specific compact. See Entergy Arkansas, Inc. v. Nebraska, 241 F.3d 979 (CA8 2001); Entergy Arkansas,
Inc. v. Nebraska, 358 F.3d 528 (CA8 2004).

10
That conclusion in no way conflicts with the Third
Circuit’s decision. Indeed, it is undisputed in this case
that the Waterfront Commission Compact contains no
such waiver provisions. Pet. App. 70-104. Although
the Compact allows Petitioner to “enforce [its] provisions” against “persons” to “compel” compliance, Pet.
App. 76-78, the Compact excludes States from the definition of “person.” See Pet. App. 73 (“‘Person’ ... shall
not include the United States, any State or territory
thereof or any department, division, board, commission or authority of one or more of the foregoing.”).
That is why the Commission sought to reframe its suit
as against the Governor of New Jersey rather than the
State. And that is why Petitioner never alleged—and
the Third Circuit did not grapple with—the waiver issues at the heart of Entergy.
Seeking to establish a conflict, Petitioner focuses
on the Eighth Circuit’s brief and ancillary statement
that “an alternate basis for jurisdiction under Ex parte
Young” further supported a suit against Nebraska and
its officials. Entergy I, 210 F.3d, at 897. Even leaving
aside that this language is dicta, there is still no split.
In Entergy, the Commission sought to order Nebraska
officials to fulfill licensing duties required by a compact to which the State remained a part. Id., at 89798. The case did not implicate Nebraska’s expenditure
of treasury funds and/or a requirement that the State
perform a contract it had terminated. As a result, the
considerations that led the Third Circuit to find New
Jersey enjoys immunity here were not present in Entergy. See Pet. App. 8. A common rule thus explains
both: immunity attaches when the goal of relief is to
“divert state treasury funding,” Pet. App. 12 & n.11,
but not if a judgment would merely enforce a licensing
duty. That hardly qualifies as a split.

11
Indeed, a more recent Third Circuit decision offers
other compelling proof that no split exists. In DRJBC,
an interstate compact agency sought an order requiring a signatory State to adhere to a compact’s limits
on its inspection authority. While the requested relief
might have had a derivative “impact on [the State’s]
revenues” (as in Entergy), the Third Circuit still found
that the proposed relief would not directly expend itself on the public treasury. 985 F.3d, at 194. The court
thus found that the official—and not the State itself—
was the proper defendant. Id., at 193-94. That DRJBC
reached the same outcome as Entergy on more similar
facts confirms the lack of any split between the Third
and Eighth Circuits, and instead confirms that each
panel is applying a shared body of sovereign immunity
law to the unique facts of each case.
2. There is no split between the Third and Tenth
Circuits. The case Petitioner cites involved an interstate compact to apportion the Red River and its tributaries. See Tarrant Reg’l Water District v. Sevenoaks,
545 F.3d 906, 909 (CA10 2008). A Texas agency sued
the members of the Oklahoma Water Resources Board
(OWRB) to bar them from implementing a state statute that “established a moratorium on the sale or exportation of water outside the state,” which Texas argued contravened the Red River interstate agreement.
Id. at 908-10. The Tenth Circuit rejected Oklahoma’s
sovereign immunity defense, reasoning that “defendants are state officials within the ambit of the Eleventh Amendment”; the plaintiff “seek[s] only prospective, injunctive relief” regarding its application for water use; and the special interests applicable to state
land under Idaho v. Coeur d’Alene Tribe. 521 U.S. 261
(1997), could not apply to that case. See Tarrant, 545
F.3d, at 911-12.

12
Rather than establishing a split, this case and Tarrant addressed different circumstances and resolved
them accordingly. Indeed, although Petitioner emphasizes Tarrant’s statement that prospective-relief suits
can proceed against a State’s officials even if they will
have ancillary financial consequences upon the State,
the Third Circuit agrees. Compare id., at 911, with
Pet. App. 7-9, n.7 (agreeing Ex Parte Young permits
suits for prospective relief, “[e]ven if the relief would
affect the State’s treasury,” so long as any “effect on
the public fisc is merely ancillary to permissible prospective relief”). But the issue in Tarrant was whether
a State maintained immunity from a prospective-relief suit because the suit implicated the State’s “ownership interests in its natural resources.” 545 F.3d, at
913. This case, by contrast, asks whether the State retains immunity in a dispute regarding whether certain revenues should “com[e] to [the Commission’s] account instead of New Jersey’s” public fisc. Pet. App. 12
n.11. There is no conflict between a decision addressing the intersection of sovereign immunity and Couer
d’Alene, and a decision at the intersection of immunity
and the treasury. See VOPA, 563 U.S., at 256-57.
More than that, it makes eminent sense that these
real-party-in-interest analyses would come out differently. For one, the lawsuit in Tarrant did not seek to
“expend itself on the public treasury or domain,” Pet.
App. 8; instead, the Texas agency sought only to purchase water from Oklahoma, which benefitted the latter’s fisc. 545 F.3d, at 908. For another, the Tenth Circuit found the judgment in Tarrant would have had no
impact of “public administration,” Pet. App. 8; the
judgment requested would have put the Texas agency
“on the same footing as instate applicants seeking water appropriations,” but would have left to Oklahoma

13
“discretion to determine whether [that] application
meets other state statutory and regulatory standards.” 545 F.3d, at 913. Materially different facts justify reaching different results.2
Finally, even if this Court perceived any tension
between the Third Circuit and its sister circuits (and
there is none), it would be explained by an intervening
decision of this Court. In Petitioner’s view, Tarrant
adopts a “straightforward” immunity inquiry in which
the only issue is whether the relief “is properly characterized as prospective.” 545 F.3d, at 911-12; see also
id. at 911 (stating generally “the issue of sovereignty
is no longer a part of our analysis regarding Eleventh
Amendment immunity”). To the degree that this is the
best reading of Tarrant, this Court later dispelled this
misapprehension explicitly in VOPA—confirming the
“straightforward” Ex Parte Young test is “limit[ed]” by
“the principle that the ‘general criterion for determining when a suit is in fact against the sovereign is the
effect of the relief sought’” and by whether “the state
is the real, substantial party in interest.” 563 U.S., at
255-56 (quoting Pennhurst, 465 U.S., at 101, 107).

And again, the Third Circuit’s recent decision in DRJBC
undermines any claims of a split. As noted above, six weeks ago,
the Third Circuit resolved another case in which an interstate
compact agency sued a state official, and the official responded
that he was immune. 985 F.3d, at 191. The Third Circuit disagreed, finding the relief did not operate against the State because
the judgment would not “interfere with public administration”
and the effect on the fisc was “ancillary.” Id., at 194. This decision
confirms there is no sweeping disagreement between the Third
and Tenth Circuits, and that each decision is being narrowly resolved on the facts before each panel.
2

14
That principle is relevant to this case: the Third Circuit cited VOPA no fewer than twelve times across its
fourteen-page opinion. See Pet. App. 7, 8, 9, 11, 12, 14.
That VOPA post-dates Tarrant counsels in favor of
percolation rather than certiorari.
II.

This Case Does Not Otherwise Warrant
Certiorari.

Absent a split, this case is not certworthy for two
reasons. First, Petitioner dramatically overstates the
consequences of the decision below, which will almost
never (if ever) arise again. Second, the decision below
was correctly decided on its facts.
A. Petitioner Overstates The Consequences
Of The Decision Below.
Although Petitioner claims that the Third Circuit’s
decision will render compacts unenforceable in “every
geographic corner” and “every imaginable field,” Pet.
26, that is false. In Petitioner’ view, allowing New Jersey to retain immunity will mean States can disregard
commitments under interstate compacts with abandon. But there are many ways to hold States accountable without upending their immunity. And the decision below applies only where the facts show the State
itself is the real party in interest.
1. The question presented will rarely arise, and the
consequences Petitioner fears will not follow, because
there are myriad ways to hold States accountable consistent with their immunity.
First, the consequences Petitioner fears could only
arise if no other signatory States wished to hold the
State accountable for an alleged violation of an interstate compact. After all, States surrendered their sovereign immunity to “suits by sister States” at the

15
Founding. Blatchford v. Native Village of Noatak &
Circle Village, 501 U.S. 775, 782 (1991). So when
States allegedly violate an interstate compact, one or
more of the other signatories can sue them. That Petitioner’s parade-of-horribles can arise only if no other
signatory State deems the alleged compact violation
important enough to justify a suit is compelling proof
that Petitioner’s concerns are overstated.
While Petitioner asserts that State-on-State suits
are inadequate substitutes because they increase the
Court’s original jurisdiction docket, Petitioner is mistaken. For one, Petitioner ignores the deterrent effect
of these potential lawsuits: if a State knows that another signatory would sue for the violation of a compact, that State is unlikely to violate those terms. For
another, suits by interstate compact agencies are already rare; the Petition identifies one case in which an
interstate compact agency sued a member State, and
that case involved an explicit waiver of sovereign immunity by that compact’s members. See Entergy I, 210
F.3d, at 897. The paucity of such actions is unsurprising: interstate compact agencies often are jointly controlled by member States through appointees, making
such lawsuits unlikely. See Part III, infra (noting Petitioner’s own lack of authority to sue). But the dearth
of such cases undermines Petitioner’s claim that the
Third Circuit’s decision will have a meaningful impact
on this Court’s original jurisdiction docket.3

Further, while Petitioner complains that an interstate compact agency “ha[s] no court to which it could turn for redress”
because it may not participate in an original jurisdiction action,
Pet. 30, that is incorrect. This Court has held that if a signatory
State files a compact violation lawsuit in this Court, the relevant
interstate compact agency may bring its derivative claims in this
3

16
Second, the alleged consequences could only arise
if the Federal Government also declined to sue an allegedly offending State. Petitioner argues throughout
its brief that “interstate compacts approved by Congress have the status of federal law.” Pet. 2; see also
Pet. 5, 7, 10, 13, 14, 17, 20, 22, 24. Because the United
States can file suit against the States for violations of
federal law, see Blatchford, 501 U.S., at 782, the Federal Government can hold them accountable for violations of compacts. (And these suits do not implicate
original jurisdiction.) This means the consequences
Petitioner fears only come to pass when neither a single signatory State nor the Federal Government believes the alleged violation justifies suit.
Third, Petitioner’s concerns will likewise only arise
where the signatory States did not consent in the compact to suits by the interstate compact agency. States,
of course, can waive their sovereign immunity, College
Savings Bank v. Florida Prepaid Postsecondary Educ.
Expense Bd., 527 U.S. 666, 675-76 (1999), and the Entergy case Petitioner cites confirms that they can and
have done so when signing other interstate compacts.
See Entergy I, 210 F.3d, at 897. That matters in two
respects. For one, this limits the universe of compacts
in which the question presented can arise—only those
compacts where the member States did not acquiesce
to suits by the commission they created. For another,
this offers a simple solution to the alleged destabilization of interstate compacts: if the signatory States believe it is warranted, they can subject themselves and
each other to suits by the interstate agency by making
forum as well. See Alabama v. North Carolina, 560 U.S. 330, 357
(2010). The problem for Petitioner is that the remaining State
did not find the alleged violation here worthy of litigation.

17
that waiver part of their compact. That simply did not
happen here. See Pet. App. 14 n.13.4
Far from telegraphing the end of interstate compacts, the question presented can only arise if no other
sovereign views the violation as important enough to
justify suit and the signatory States never agreed to
suits by an interstate body. It is the rare case that will
meet these qualifications, and they are almost by definition unimportant to that compact’s members.5
2. Even in the rare situations in which the question
presented does arise, the decision below will not have
the consequences Petitioner fears. After all, the Third
Circuit did not provide States carte blanche to violate
interstate compacts, but instead issued a narrow holding that New Jersey retained its sovereign immunity
in the unique circumstances of this case.
The fact-bound nature of the decision below is clear
from the face of the Third Circuit’s opinion. The panel
began by simply reciting legal principles this Court already confirmed—that lawsuits for prospective relief
against state officials can go forward under Ex Parte
Young, but that there is an exception if “the ‘judgment
sought would expend itself on the public treasury or
domain, or interfere with public administration,’” or if
Importantly, a waiver of sovereign immunity must be “unequivocally expressed.” Pennhurst, 465 U.S., at 99. That rule, of
course, applies to interstate compacts. But that is a problem for
Petitioner: as described above, this Compact confirms Petitioner
may not sue the member States.
4

This case is a perfect example. In the three years since the
enactment of Chapter 324, the only other signatory State has not
sued New Jersey. That confirms how unimportant this dispute
is—and how undeserving it is of this Court’s limited time.
5

18
a challenger seeks to compel specific performance of a
contract. Pet. App. 8 (quoting VOPA, 563 U.S. at 255,
256). Instead of breaking doctrinal ground, the panel
held that this case was fundamentally about whether
“these facts” implicated those exceptions. Pet. App. 12;
see also Pet. App. 12 n.11 (noting it was rendering a
“fact-specific holding”). Based on the language of the
Compact and the challenged legislation—and because
the case involved a dispute over whether the revenue
from certain assessments will go into New Jersey’s account or Petitioner’s—the panel found that New Jersey was the real party in interest under VOPA.
Although Petitioner claims that the Third Circuit’s
understanding of what qualifies as a “judgment … on
the public treasury” and the “specific performance of
a contract” is so broad as to eviscerate all or nearly all
interstate compacts, see Pet. 26-29 (citing Pet. App. 8),
a recent decision of the Third Circuit confirms Petitioner’s fears are misplaced. As noted above, in January, the Third Circuit faced a question regarding the
reach of the decision below. In that case, Pennsylvania
claimed the right to engage in certain inspections notwithstanding commitments it had made in an interstate compact. DRJBC, 985 F.3d, at 191-93. The interstate compact agency sued the relevant Pennsylvania
official, which claimed the State was the real party in
interest. But the DRJBC panel—in a ruling authored
by Judge Hardiman, a member of the panel below—
rejected that assertion. Id., at 194.
In so doing, DRJBC clarified the limited reach of
the decision below. For one, in contrast to Petitioner’s
view that nearly all suits enforcing an interstate compact will have a sufficient impact on the State’s fisc to
implicate immunity, DRJBC held that any “impact on

19
Pennsylvania’s revenues,” including a “loss of inspection fees,” was the “permissible,” “ancillary effect” of
relief sought under Ex Parte Young. Id. For another,
while Petitioner worries that nearly every lawsuit by
an interstate compact agency will be read to seek specific performance of such a compact, DRJBC held that
in general a “judgment requiring the Secretary to respect [such a] Compact as written does not constitute
an impermissible order of specific performance” and
“to hold otherwise would allow state officials to evade
federal law.” Id. The Third Circuit thus follows the
rules Petitioner proposes and it allows suits by other
interstate commissions to proceed—it simply reached
a different result on these particular facts.
In short, a State only enjoys immunity if all of the
following steps are satisfied:
•

No other signatory State to the interstate compact wishes to hold the defendant to its alleged
commitments under that compact;

•

The Federal Government does not wish to hold
the defendant to its alleged commitments under the interstate compact;

•

The States in enacting the interstate compact
did not authorize the interstate commission to
sue the signatories for violations; and

•

The specific facts of the interstate commission’s
suit demonstrate that relief operates against a
State and not its officials—a finding that is still
rare in the Third Circuit.

Far from signaling the end of interstate compacts, it
is hard to see how a decision with such a limited reach
justifies certiorari.

20
B. The Decision Below Is Correct.
Not only does Petitioner seek certiorari in a splitless, fact-bound case, but the panel’s decision reflects
the proper application of this Court’s precedents.
Begin with the principles on which the Third Circuit relied. In framing its analysis, the court explicitly
hewed to the sovereign immunity rules this Court articulated most recently in VOPA. The panel first recognized that under Ex Parte Young, suits may be filed
against state officers to enjoin the ongoing violation of
federal law, Pet. App. 7 (citing VOPA, 563 U.S., at 25455; Verizon Md. Inc. v. Pub. Serv. Comm’n of Md., 535
U.S. 635, 645 (2002)), even if the relief sought would
have an ancillary impact on the public fisc, Pet. App.
8 n.7 (citing Edelman v. Jordan, 415 U.S. 651, 667-68
(1974)). But it noted, in line with this Court’s rulings,
that Ex Parte Young does not apply if the State is the
real party in interest. Pet. App. 8 (citing VOPA, 563
U.S., at 255; Pennhurst, 465 U.S., at 101). The panel
added that this analysis turns on whether relief would
operate against the State itself. Id. (citing Pennhurst,
465 U.S., at 101). And, again reciting this Court’s instructions, the Third Circuit concluded that relief operates against a State if the plaintiff seeks a judgment
that “would expend itself on the public treasury or domain, or interfere with public administration,” and/or
if the “relief consists of … ‘an order for specific performance of a State’s contract.’” Id. (citing VOPA, 563
U.S., at 256-57; Edelman, 415 U.S., at 666-67; In re
Ayers, 123 U.S. 443 (1887)). Petitioner does not contest any of these rules, nor could it: they have all been
established explicitly by this Court.
The Third Circuit also applied these analyses correctly to the facts. In assessing whether this is a case

21
where relief would expend itself on the public treasury
and/or interfere with government administration, the
panel canvassed the record, including the Complaint’s
“frank … recitation of the expected financial effects”
of the New Jersey law as well as the relief requested.
Pet. App. 11. The Third Circuit explained that because
New Jersey’s Chapter 324 would transfer the revenue
collected on its side of the border from the Waterfront
Commission to the State’s treasury, the goal of the litigation was to “divert state treasury funding” back to
the Commission. Pet. App. 12. Indeed, there was no
doubt that this suit is designed to prevent transfer of
Petitioner’s “assets,” “contracts,” and “finances” to the
State, Pet. App. 27—including “reserves,” employer
“assessments,” and “penalty” monies. Pet. App. 121,
160, 161. In other words, Petitioner aims to “pry back
its authority to assess [New Jersey] employers” and
retain a “revenue stream” that would otherwise flow
to the State’s treasury. Pet. App. 11, 12. The “suit is
no mere attempt to compel or forestall a state official’s
actions” under Ex Parte Young, Pet. App. 12, but a demand that operates on the public fisc.6
The relief Petitioner seeks also goes to the heart of
important public administration. As the New Jersey
Legislature explained when enacting Chapter 324, the
Commission has “been tainted by corruption in recent
Petitioner disagrees with the Third Circuit’s view of its requested relief, see Pet. 16 (claiming that its “injunction would not
require the payment of funds from the State’s treasury at all”),
but that is the very sort of case-specific dispute inappropriate for
certiorari. In any event, Petitioner is wrong. Chapter 324 renders
the funds at issue New Jersey treasury funds. The injunctive relief seeks to claw back those treasury funds and allocate them to
Petitioner’s budget. Absent that relief, the funds unquestionably
are New Jersey’s.
6

22
years,” and has even “exercised powers that do not exist within the authorizing compact.” Pet. App. 106.
The Legislature therefore found that “[a]bolishing the
commission and transferring the New Jersey portion
of the commission’s law enforcement responsibilities
to the New Jersey State Police” would secure the Port,
Pet. App. 107, and better promote “future job growth”
for “one of the backbones of the region’s economy,” Pet.
App. 105-06. That Petitioner’s suit implicates whether
New Jersey can pay its State Police to secure the port
or whether Petitioner can claim the revenues to handle those responsibilities provides yet more indication
that New Jersey itself is the real party in interest.
Similarly, the Third Circuit did not err in deciding
on “these facts” that relief would require New Jersey’s
“specific performance of a State’s contract.” Pet. App.
12. The Third Circuit acknowledges that interstate
compacts enjoy the status of federal law and in most
cases a judgment requiring an official to follow a
“[c]ompact as written does not constitute an impermissible order of specific performance.” DRJBC, 985
F.3d, at 194. But the Third Circuit found that the facts
here were unique: Petitioner did not just seek to compel compliance with a compact’s provision, but to compel a sovereign to remain party to a contract “that it[s]
[Legislature] has decided to renounce.” Pet. App. 13.
That demand implicated the need of a “sovereign [to]
be free from judicial compulsion in the carrying out of
its policies within the limits of the Constitution,”
Pennhurst, 465 U.S., at 117, and meant the real party
in interest was not an official but the sovereign itself.
Pet. App. 10, 13; see also DRJBC, 985 F.3d, at 194 (in
discussing the decision below, confirming New Jersey
was the real defendant because relief would “[f]orc[e]

23
New Jersey to abide by a compact it had expressly rejected through proper legislative channels”). Whatever one thinks of the sovereign’s choice to withdraw
from the underlying Compact, the sovereign itself is
plainly the true defendant.7
Notably, the panel below reached the wrong result
in this case only if this Court disagrees with both of its
analyses. Said another way, if this Court believes that
the Third Circuit correctly held that Petitioner’s relief
would expend itself on the public treasury, it is irrelevant whether it also agrees with the assessment of the
specific-contract-performance test. The same is true in
reverse. That is because either holding independently
establishes New Jersey as the real, substantial party
in interest. Pet. App. 12. And because the panel correctly applied both immunity analyses to the facts before it, certiorari is inappropriate.

Petitioner’s attempt to draw a distinction between “mandatory injunction[s],” which it concedes are barred by sovereign immunity, and “prohibitory injunction[s],” which it contends are
not, is without merit. Pet. 22. A suit, “the object of which is by
injunction, indirectly, to compel the specific performance of the
contract, by forbidding all those acts and doings which constitute
breaches of the contract, must also, necessarily, be a suit against
the State.” In re Ayers, 123 U.S., at 502 (emphasis added); see
also Hagood v. Southern, 117 U.S. 52 (1886) (finding immunity
when plaintiff sought injunction restraining officers from executing provisions of legislative act alleged to be in violation of plaintiff’s contract rights). In short, “[t]he general rule is that a suit is
against the sovereign … if the effect of the judgment would be ‘to
restrain the Government from acting, or to compel it to act.’”
Pennhurst, 465 U.S. at 101 (emphasis added).
7

24
III.

This Case Is A Poor Vehicle In Which To
Review The Question Presented.

Although certiorari is unwarranted because there
is no split and the fact-bound decision below will have
none of the consequences (and has had none of the consequences) Petitioner fears, there is another problem:
this case is a poor vehicle for addressing the question
presented. In short, there are serious questions as to
whether Petitioner even had the authority to file this
Petition and seek this Court’s review.
As the Third Circuit noted below, there is an open
question as to “whether this suit was properly filed in
the Commission’s name.” Pet. App. 5 n.3. While this
action is denominated “Waterfront Commission of N.Y
Harbor v. Phil Murphy, Governor of New Jersey,” the
suit was filed without Commission authorization. The
Compact explicitly states that “[t]he commission shall
act only by unanimous vote of both members thereof,”
meaning the combined votes of a Commissioner from
New York and a Commissioner from New Jersey. Pet.
App. 75. But here, the Commission’s Executive Director and General Counsel hired outside counsel and initiated the underlying litigation without bringing the
matter to a vote before the Commission. Pet. App. 4950. Then—after the fact and in an apparent attempt
to rectify this fatal defect—Commission staff brought
the matter to the Commissioners, but succeeded in securing approval of the New York Commissioner alone,
with the New Jersey Commissioner recusing himself.
Pet. App. 50. Nevertheless, Commission staff continued moving forward with this litigation.
Although the Third Circuit could simply sidestep
this issue after finding that New Jersey retained immunity, the same is not true for this Court—because

25
the lack of authority for Petitioner to go forward has
grown more glaring. After the Third Circuit issued the
decision below, New Jersey’s Commissioner (Commissioner Michael Murphy) rescinded his recusal, N.J.
State Ethics Comm’n, Request for Advisory Opinion:
Commissioner Murphy (“SEC Op.”) (Oct. 19, 2020) at
3, available at https://tinyurl.com/yap7lxun, and he
attempted to prevent the filing of this Petition—generating a 1-1 split as to whether it could be filed. Cf.
Texas v. New Mexico, 462 U.S. 554, 565 (1983) (explaining that an interstate compact’s requirement of
unanimity governs even where it increases “the structural likelihood of impasse” for an interstate compact
agency). The Commission’s staff, however, refused to
acknowledge Commissioner Murphy’s decision, insisting he remained recused. SEC Op., at 3.
The issue went before the New Jersey State Ethics
Commission. First, the staff of the State Ethics Commission confirmed that Commissioner Murphy is not
recused and can participate in decisions about this Petition. Id. But even that was not enough: Waterfront
Commission staff demanded the State Ethics Commissioners themselves weigh in. Id. So the State Ethics Commissioners did so on October 19, 2020, finding
Commissioner Murphy “did not and does not have a
personal or financial interest requiring his recusal”
and that “he is not precluded from rescinding his prior
recusal to the extent that the recusal was based on
these concerns.” Id., at 7.8 Yet Petitioner persists in

Nor is there any inherent reason why the New Jersey Commissioner has to be recused. To be sure, a critical question in this
case is whether revenues should go to New Jersey’s treasury rather than to the Commission’s accounts. But the potential bene8

26
pursuing this lawsuit. The bottom line is this: the decision of New Jersey’s Commissioner to participate in
votes regarding this litigation (despite the staff’s continued refusal to acknowledge him) thus confirms the
1-1 split, and deprives the Commission of the unanimity it requires to proceed in this case.
That this Petition for Certiorari was filed in the
Waterfront Commission’s name even as this dispute
rages on presents a substantial potential obstacle to
review. If New Jersey’s Commissioner succeeds in
having his voice duly heard and in bringing this litigation to a 1-1 vote, this Court could grant certiorari
only to have to later dismiss the writ as improvidently
granted based upon Petitioner’s inability to proceed.
There is simply no reason for this Court to take up a
split-less issue in light of the serious dispute over Petitioner’s authority to press it.
CONCLUSION
This Court should deny the petition.

fits to New Jersey from ending this lawsuit recuses the New Jersey Commissioner no more than the alleged harms to New York
recuse the New York Commissioner from participating.

27
Respectfully submitted,
GURBIR S. GREWAL
Attorney General
State of New Jersey
JEREMY M. FEIGENBAUM
State Solicitor
JEAN P. REILLY
Assistant Attorney General
JAMIE M. ZUG
KRISTINA L. MILES
Deputy Attorneys General
25 Market Street
Trenton, NJ 08625
(609) 292-4925
jeremy.feigenbaum@njoag.gov
Counsel for Respondent Governor Murphy
LEON J. SOKOL
STEVEN SIEGEL
CULLEN AND DYKMAN LLP
433 Hackensack Avenue
Hackensack, NJ 07601
lsokol@cullenllp.com
Counsel for Respondents New
Jersey Senate, Senate President
Stephen M. Sweeney, New Jersey
General Assembly, and Assembly
Speaker Craig J. Coughlin
March 1, 2021

